CERTIFICATE OF COMPLIANCE WITH WORD COUNT

CERTIFICATE OF COMPLAINCE
No.

ANNE BLOCK,
Petitioner,
v.
WSBA, et al.,
Respondents.

As required by Supreme Court Rule 33.1(h), I certify that the Petitioner’s Reply to
Respondent Kenyon Disend and City of Gold Bar’s Opposition to Petition for Writ of
Certiorari contains 1776 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 13, 2019, 2019

Anne Block Pro Se Petitioner

